OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BULGARIA’S
DEVELOPMENT CREDIT
AUTHORITY
AUDIT REPORT NO. 9-183-06-002-P
OCTOBER 25, 2005




WASHINGTON, DC
Office of Inspector General



October 25, 2005

MEMORANDUM

TO:                  USAID/Bulgaria Director, Michael Fritz

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID/Bulgaria’s Development Credit Authority
                     (Report No. 9-183-06-002-P)

This memorandum transmits our final report on the subject audit. In finalizing our report, we
considered your comments on our draft report and have included your response in its entirety in
Appendix II. This report does not include any recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

       Did USAID/Bulgaria manage its Development
       Credit Authority guarantees to ensure that
       selected intended results were achieved?

Audit Finding ................................................................................................................... 4

Other Matters without Recommendations………………………………………………....6

       Claims Processing………………………………………………………………………….7

       Project Monitoring…………………………………………………………………………..7

       Marking Requirements……………………………………………………………………..7

Evaluation of Management Comments ......................................................................... 8

Appendix I – Scope and Methodology .......................................................................... 9

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
The Development Credit Authority (DCA) is a broad financing authority that allows
USAID to use credit to pursue any of the development purposes specified under the
Foreign Assistance Act of 1961, as amended. The DCA is designed to overcome
lending obstacles encountered in the commercial banking sector, which is often unwilling
to lend funds to a particular sector or borrower(s). USAID’s DCA credit guarantees
encourage commercial banks to finance targeted development projects that otherwise
would most likely not be funded. They also encourage local private-sector lending and
stimulate the development of local capital markets (see page 2).

This audit was conducted as an initial audit by the Office of Inspector General’s
Performance Audits Division—the first in a series of planned individual mission audits of
USAID’s Development Credit Authority. The objective of this audit was to determine
whether USAID/Bulgaria managed its DCA guarantees to ensure that selected intended
results were achieved (see page 3).

USAID/Bulgaria managed its DCA guarantees to ensure that selected intended results
were achieved. The loans selected for review supported their intended strategic
objectives, were made to qualified borrowers for qualified projects, and funded activities
reflecting the intended purpose of the loans. Furthermore, the Mission achieved its
aggregate utilization1 projections for the fiscal year ending September 30, 2004 (see
page 4).

This report does not include any recommendations. In response to our draft report,
USAID/Bulgaria concurred with the observations made in the draft report. See page 8
for our evaluation of management comments.

Management comments are included in their entirety in Appendix II.




1
 Utilization refers to the number and/or dollar amount of loans disbursed by a partnering bank
under a loan portfolio guarantee.



                                                                                            1
BACKGROUND
The Development Credit Authority (DCA) is a broad financing authority that allows
USAID to use credit to pursue any of the development purposes specified under the
Foreign Assistance Act of 1961, as amended. The DCA is designed to overcome
lending obstacles encountered in the commercial banking sector, which is often unwilling
to lend funds to a particular sector or borrower(s). USAID’s DCA credit guarantees
encourage commercial banks to finance targeted development projects that otherwise
would most likely not be funded. They also encourage local private-sector lending and
stimulate the development of local capital markets. Guarantees typically cover up to 50
percent of a loan.2

Congress gave USAID the general authority to provide loan and bond guarantees in the
Appropriations Act for Fiscal Year 1998. In April 1999, the Office of Management and
Budget certified USAID's capacity to properly manage credit programs—to accurately
assess risk and to operate viable financial management and accounting systems.
Subsequently, USAID began to exercise its DCA authority.

DCA credit guarantees are typically designed by USAID's overseas missions and
managed jointly by the mission and USAID’s Office of Development Credit (ODC).
Missions are primarily responsible for developmental monitoring, while ODC is primarily
responsible for financial monitoring. While four types of DCA guarantees are available,
as of September 30, 2004, nearly 75 percent were loan portfolio guarantees.3

As of September 30, 2004, USAID had signed 114 DCA guarantees in 36 countries,
making credit totaling nearly $856 million available, guaranteeing a maximum of
approximately $335 million, with cumulative utilization amounting to nearly $193 million.4
During this same period, USAID/Bulgaria had five DCA loan portfolio guarantees,
making credit of $60 million available, while guaranteeing a maximum of $26.5 million.
As of September 30, 2004, these five guarantees were responsible for 86 loans totaling
over $41 million, representing over 20 percent of the dollar amount of loans guaranteed
by USAID to date.




2
  Although USAID is also authorized to make direct loans under its DCA authority, as of
September 30, 2004, it had not exercised this authority.
3
 In a loan portfolio guarantee, USAID signs an agreement with a partnering bank and agrees to
partially guarantee individual loans made by the bank to borrowers meeting strict eligibility
guidelines, such as type of borrower and project, projected positive cash flows, creditworthiness,
and other factors.
4
    These figures are unaudited.



                                                                                                2
                                  ●Gorna
                                  Orjahovitsa
                                  ●Veliko
                                  Tarnovo




                                                                      5
                                                                  Map     of Bulgaria, with
                                                                  arrows designating cities
                                                                  where the OIG audit team
                                                                  conducted site visits to
                                                                  projects funded with DCA
                                                                  loan guarantees.




AUDIT OBJECTIVE
This audit was conducted as an initial audit in a planned series of individual worldwide
mission audits of USAID’s Development Credit Authority, as part of the Office of
Inspector General’s (OIG) fiscal year 2005 audit plan. The audit was conducted to
answer the following question:

•   Did USAID/Bulgaria manage its Development Credit Authority guarantees to ensure
    that selected intended results were achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




5
 This map is not to scale. It was adapted for report purposes from a map on the Lonely Planet
website found at http://www.lonelyplanet.com/mapshells/europe/bulgaria/bulgaria.htm.



                                                                                       3
AUDIT FINDING
USAID/Bulgaria managed its Development Credit Authority (DCA) guarantees to ensure
that selected intended results were achieved. The loans selected for review supported
their intended strategic objectives, were made to qualified borrowers for qualified
projects, and funded activities reflecting the intended purpose of the loans. Furthermore,
the Mission achieved its aggregate utilization projections for the fiscal year ending
September 30, 2004.

Various forms of USAID guidance govern missions’ responsibilities for managing DCA
guarantees. Automated Directive System (ADS) 249, Development Credit Authority,
states that missions are responsible for the developmental soundness of DCA activities
and for implementing, overseeing, monitoring, and evaluating these activities. USAID’s
Office of Development Credit’s (ODC) Operations Manual states that missions should
conduct development monitoring and should assist ODC with financial monitoring,6
including bank site visits.

USAID/Bulgaria had five loan portfolio guarantees as of September 30, 2004. In
accordance with ADS 249, each guarantee agreement supported one or more of the
Mission’s strategic objectives. Additionally, each agreement targeted one of the
Mission’s development sectors. For example, the two agreements selected for detailed
review supported the Mission’s “Economic Growth and Increased Prosperity” strategic
objective—one funded loans for municipal and company energy efficiency projects and
the other funded loans for small and medium enterprise projects in competitive sectors.
As part of its monitoring process, the Mission appropriately included its DCA guarantees
in its annual strategic objective portfolio and activity reviews. Furthermore, the Mission
described how its guarantees helped achieve the related strategic objective in the
performance narrative of its fiscal year 20057 annual report submitted to
USAID/Washington.

To ensure that loans made under a portfolio guarantee were used to achieve intended
results, each agreement between USAID and the partnering bank specified loan
eligibility guidelines. When a partnering bank approved and disbursed a loan and put it
under guarantee, it notified the Mission by issuing a notification letter. USAID/Bulgaria
used these letters to verify that both the borrower and the loan purpose met the eligibility
guidelines in the agreement. In accordance with USAID guidance, the Mission also
conducted semi-annual site visits to partnering banks, maintained regular contact with
bank officials, and obtained the banks’ annual audited financial statements.

USAID/Bulgaria’s loan guarantees funded activities which reflected the intended purpose
of the loans. For example:

6
  According to the May 2002 version of the Operations Manual—which was available on ODC’s
website during the period of the audit through mid-August 2005—ODC is primarily responsible for
financial monitoring. Missions’ responsibility for financial monitoring is a support role. ODC
maintains a database to which partnering banks submit semi-annual loan schedules. See page 7
of this report for a related discussion concerning project monitoring.
7
  USAID’s fiscal year 2005 annual reports describe performance information from fiscal year
2004.


                                                                                             4
•   One loan guarantee allowed a municipality to modernize its streetlights, creating
    sufficient energy savings to repay the loan. USAID’s guarantee decreased the
    amount of collateral the municipality was required to provide the bank.




                                                                      Photograph         taken
                                                                      June 15, 2005 by an
                                                                      OIG      auditor      of
                                                                      municipal, bank and
                                                                      Mission staff in front
                                                                      of a streetlight funded
                                                                      by    a    DCA      loan
                                                                      guarantee in Veliko
                                                                      Tarnovo, Bulgaria.




•   A second loan guarantee allowed a small, family-run hotel to expand from just
    several rooms to 22 rooms—17 of which are suites—and to install energy-efficient
    lighting in the halls and suites. According to hotel staff, the hotel has been enjoying
    an average occupancy rate of 90 percent. USAID’s guarantee gave the partnering
    bank confidence to lend in a sector to which it had not previously been willing to
    extend credit.

•   Two loan guarantees allowed a taxi company to buy a fleet of new specially outfitted
    cars and to modernize the equipment in its service center. USAID’s guarantees
    permitted the bank to make a larger loan to this company than it otherwise would
    have, due to collateral and capital requirements.

•   Lastly, a loan guarantee allowed a company to double its energy efficiency by
    refurbishing and replacing its antiquated heat and power station. A company
    executive stated that it no longer had to buy power, but instead generated excess
    electricity and sold it to the municipality’s grid.




                                                                                        5
                                                   Photograph taken June 16, 2005 by a DCA
                                                   beneficiary of OIG auditors and factory officials
                                                   in the factory’s command center. An official
                                                   explained that a DCA loan guarantee funded
                                                   generator number 2. The factory is located in
                                                   Gorna Orjahovitsa, Bulgaria.



One of the primary performance measures ODC used to evaluate whether DCA
guarantees achieved their intended results on a worldwide basis was the dollar volume
of cumulative utilization and the related percentage of this volume to the total available
credit for approved DCA facilities. Correspondingly, USAID/Bulgaria’s primary
performance measure for its DCA guarantees was the utilization of its guarantees by the
partnering banks. The indicator used to measure utilization was the dollar amount of
loans made under its guarantee agreements.8 The Mission obtained semi-annual
projections from its partnering banks and forwarded these projections to ODC staff, who
prepared an analysis of projected versus actual utilization. Based on their analysis, the
Mission achieved its aggregate utilization projections for the fiscal year ending
September 30, 2004—actual cumulative utilization totaled $41.6 million versus projected
utilization of $39.9 million.

Other Matters without Recommendations

During the course of our audit, we noted the following matters requiring follow-up during
the individual mission audits to be performed during the first and second quarter of fiscal
year 2006. This information is provided for informational purposes only. If appropriate,
we will address these matters and make related recommendations in the summary audit
report issued upon completion of this worldwide audit. This summary audit report is
expected to be issued in the summer of 2006.


8
 The Mission reported the number and dollars of utilization in its fiscal year 2004 Joint Agency-
State Mission Performance Plan.



                                                                                              6
Claims Processing — ADS 2499 states that missions should be the focal point for
lender claims under DCA guarantees and that mission staff should determine if a claim
is valid and request that ODC process the claim. USAID/Bulgaria received its first DCA
guarantee claim request from a partnering bank in April 2005 and submitted the $97,886
claim to ODC for verification and payment, without first determining the validity of the
claim. USAID paid the claim in May 2005. During follow-up fieldwork performed at
USAID/Washington, the audit team determined that ODC is in the process of revising the
ADS to properly reflect that it is ODC’s responsibility—not the missions’—to determine
claim validity. As of the issuance date of this report, ODC was in the process of revising
ADS 249. Therefore, no recommendation regarding this matter is considered necessary
at this time.

Project Monitoring — Neither Federal regulations nor USAID guidance require
monitoring by missions at the borrower level. Although missions are required to conduct
periodic partner bank site visits, they are not required to perform borrower site visits.10
According to USAID/Bulgaria staff, this is because USAID’s contractual relationship is
with the partner bank, not the borrower. In fact, one of the benefits of a DCA guarantee,
as opposed to a grant or contract, is that the onus for borrower/activity monitoring is on
the bank, not USAID.

Nevertheless, we believe that monitoring loan guarantees at the borrower or project level
would help ensure that guaranteed loans are being used for their intended purpose and
that they are funding projects that support specified strategic objectives. USAID
guidance reinforces the importance of project site visits when managing grants and
cooperative agreements. In April 2004, the ODC revised its Operations Manual to state
that in conjunction with bank site visits, mission staff should, if possible, request at least
one borrower site visit. We plan to further explore the feasibility of requiring missions to
conduct periodic borrower site visits during the course of this worldwide audit.

Marking Requirements — On August 25, 2005, USAID’s Administrator announced the
issuance of new branding requirements for grants and cooperative agreements, effective
January 2, 2006. This guidance is in addition to the Administrator’s March 2005 letter
directing contractors to begin using the new USAID identifier. This new Federal
regulation requires that all USAID programs, projects, and activities be “marked’ to
clearly identify that the aid is, “From the American People.” The new marking rules are
part of a larger campaign to generate more positive perceptions about the United States
in developing countries. We plan to determine whether these marking requirements
apply to DCA guarantees.




9
    At the time of our audit, the most recent version of ADS 249 was dated June 14, 2002.
10
 According to the April 2004 revision of the Operations Manual, during its biennial reviews, the
ODC requests at least one visit to a borrower who received a DCA-guaranteed loan.


                                                                                            7
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Bulgaria concurred with the observations made in
the report. The Mission pointed out that it is a graduation Mission with limited resources
and thus it may not be feasible to monitor at the borrower or the project level.

No further action is needed.     Appendix II includes management comments in their
entirety.




                                                                                        8
                                                                                 APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General’s (OIG) Performance Audits Division conducted this
audit in accordance with generally accepted government auditing standards. This audit
was the first in a planned series of mission audits to be conducted by the OIG. The audit
was designed to answer this question: Did USAID/Bulgaria manage its Development
Credit Authority (DCA) guarantees to ensure that selected intended results were
achieved?

In planning and performing the audit, we assessed the effectiveness of internal controls
related to DCA guarantees. We identified pertinent internal controls as (1) the Mission’s
procedures for managing and monitoring its DCA guarantees, (2) partnering banks’
procedures regarding DCA loan approvals and payments, and (3) the Mission’s annual
self assessment of internal controls in accordance with the Federal Managers Financial
Integrity Act. Relevant criteria included USAID’s Automated Directives System 249 and
USAID’s Office of Development Credit’s May 2002 DCA Operations Manual.

There were no prior audit findings affecting the areas reviewed in this audit.

Our audit scope encompassed USAID/Bulgaria’s five DCA loan portfolio guarantees as
of September 30, 2004. These five loan portfolio guarantees made credit of $60 million
available, while guaranteeing a maximum of $26.5 million. As of September 30, 2004,
these five guarantees had generated 86 loans totaling over $41 million, representing
over 20 percent of the dollar amount of DCA loan guarantees to date. USAID/Bulgaria’s
DCA guarantees represented over 4 percent of USAID’s 114 guarantees and
approximately 7 percent of the available credit reported by USAID in fiscal year 2004.

The intended results related to USAID/Bulgaria’s DCA loan portfolio guarantees selected
for review included determining whether:

•   Loans supported the strategic objective(s) specified in the documentation submitted
    by the Mission and approved by USAID’s Credit Review Board.

•   Loans were made to qualified borrowers for qualified projects as specified in the
    guarantee agreement between USAID and the partnering bank.

•   Activities funded by the loan guarantees represented the intended loan purpose
    stipulated in the partnering banks’ loan files.

•   USAID/Bulgaria achieved its utilization projections for the dollar amount of loans
    generated by the guarantee portfolio, on an aggregate basis, as of September 30,
    2004.

Our audit scope did not include DCA guarantee macro-level results, such as impact on
unemployment, job creation, or other economic growth indicators.




                                                                                          9
This report summarizes the results of our audit work. Preliminary fieldwork for this audit
was performed at USAID/Washington from January through May 2005.                  Mission
fieldwork was conducted at USAID/Bulgaria in Sofia and at various bank office locations
and borrowers’ sites within Bulgaria from June 2 through June 29, 2005. Follow-up
fieldwork was conducted at USAID/Washington from July 5 through August 16, 2005.

Methodology
To answer the audit objective, we performed detailed reviews of the two oldest and
largest of USAID/Bulgaria’s five DCA loan portfolio guarantees as of September 30,
2004. The two guarantees selected for review represented 92 percent of the dollar
amount utilized under USAID/Bulgaria’s guarantee portfolio. From these two guarantee
agreements, we judgmentally selected a sample of loans for detailed loan file reviews
and for borrower site visits.11

We interviewed mission staff and management and loan officers of the two partnering
banks—including officers at bank headquarters as well as those in selected branch
offices. For the loans selected for audit, we performed detailed loan file reviews at the
banks’ offices and reviewed supporting documentation maintained by the Mission for all
five guarantee agreements. We also interviewed selected borrowers and conducted site
visits to observe the projects and activities funded by the selected loans. Additionally,
we interviewed USAID officials in Washington D.C.

We did not determine materiality thresholds for the audit objective.




11
  The sample selected for loan file reviews comprised approximately 41 percent of the dollar
volume of the two guarantees chosen for review and almost 38 percent of the total portfolio of
USAID/Bulgaria DCA guarantees.


                                                                                       10
                                                                         APPENDIX II




                                                                   October 06, 2005


ACTION MEMORANDUM
To:           IG/A/PA Director, Steven H. Bernstein

From:         USAID/Bulgaria Mission Director, Michael Fritz /s/

Subject:      USAID/Bulgaria Written Comments on Draft Report on Audit of
              USAID/Bulgaria’s Development Credit Authority (DCA) (Report No 9-
              183-05-00X-P)

The Mission’s Audit Management Officer (AMO), the DCA Energy and Environment
Technical Officer and the Economic Growth Officer reviewed the subject report and IG
memo.

Basically, the draft Audit report of USAID/Bulgaria’s Development Credit
Authority programs does not include any recommendations or findings to be
addressed by the Mission.

We concur with the observations made in the report. With regard to revisions in
process of ADS 249 and the ODC DCA Operations Manual related to the
monitoring requirements for loan guarantees, we would like to point out that
USAID/Bulgaria is a graduating Mission with limited resources, and thus it may
not be feasible to monitor at the borrower or project level.

We would like to thank the audit team for their diligent efforts in performing this
audit.




                                                                                      11
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
